GAO-NLADA Correspondence 30 JUL 99
Posted:  09 SEP 1999    Home |  Audits | IPAs Read Me First
GAO
United States
General Accounting OfficeWashington, D.C. 20548
General Government Division
July 30, 1999
Clinton Lyons
President and CEO
National Legal Aid & Defender Association
Washington, D.C. 20006
Dear Mr. Lyons:
I am writing in response to your letter of July 9, 1999, in which NLADA raised several issues related to GAO's
recent review of five LSC-funded programs. Your concerns focused on documentation of citizenship/eligible
alien status, documentation of financial eligibility, timely closing of cases, duplicate cases, and reporting of
cases not funded by LSC.
First, with regard to citizenship/eligible alien status, you state that there was no LSC requirement in effect in 1997
that recipients had to retain citizenship attestation forms or documentation of eligible alien status in client files.
However, LSC regulations in effect in 1997, as referenced in your letter, clearly required recipients to obtain such
documentation from clients if the recipient is providing in-person service. Further, the LSC regulations stated that
each recipient must maintain records sufficient to document its compliance with the citizenship/eligible alien
documentation requirements. Our audit found that some case files for in-person contacts contained a written note
or a data field indicating that the client was a citizen or eligible alien, but no additional information was available
on how the eligibility determination was made. In our judgment, there was not sufficient documentation in these
cases that the recipient complied with the requirement. In instances where the case file noted that the citizenship
attestation or alien eligibility documentation had been reviewed by the case handler, auditors were directed not to
count the case as questionable, even if the documents were not physically in the file.
The second issue you raised also relates to documentation requirements. You indicate that in 1997 LSC did not
require recipients to maintain specific documentation of client income or assets in the case file. However, LSC
regulations required that recipients adopt a simple form and procedure to obtain information to determine financial
eligibility, and that the information obtained be preserved for audit by LSC. In addition, LSC regulations required
that when a recipient decides to serve a person whose gross income exceeds 125 percent of poverty, that decision
must be documented and included in the client's file. In our review of the case files, we did not count a case as
questionable if there was some indication in the file that the client's financial eligibility was determined. We did
count a case as questionable if the client's income was above 125 percent of poverty and the case file did not
contain documentation indicating an exception to the 125 percent rule.
Third, with regard to timely closing of cases,
you state that there was no LSC guidance effective in 1997 on that issue. We do not disagree that there was no
specific LSC requirement at the time. However, we felt that it was appropriate, in keeping with fundamental
management principles, to question a case that was open for more than 12 months with no indication of activity.
We discussed each case that fell into this category with the case handler to determine if there was a reason for
the lack of activity. In the majority of cases where there was no explanation, the case handlers agreed that the
case should have been closed earlier.
Fourth, with regard to duplicate cases, you indicate that the 1993 CSR Manual did not address the reporting of
duplicate cases, and that LSC did not put out guidance on the issue until the 1999 CSR Manual. You also indicate
that if a client received legal services pertaining to two different problems, it would have been appropriate for the
recipient to open two separate cases for CSR purposes. In our audit, we asked case handlers to review multiple
files pertaining to the same client and same problem code and to tell us whether they should be considered
duplicate cases.
Lastly, you discussed an issue related to the reporting of cases funded wholly by non-LSC sources. We did not
specifically audit individual case files to determine whether they were funded by LSC or other sources. Our
results did include some information, which was provided by the recipients, on cases that should not have been
reported in the CSR case totals because they were not funded by LSC. We would note that the 1993 CSR
Handbook did state that CSR reports should only include data on cases closed utilizing LSC funds.
I hope that this letter has helped clarify some of our audit methodology. Please feel free to contact me if you
have any additional questions.
Sincerely yours,
Norman J. Rabkin
Director, Administration of Justice Issues
URL: http://www.oig.lsc.gov/aud/gao990730.htm